TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Potentially Improper Health Care Credit
                    Claims by Tax-Exempt Organizations Are
                     Generally Being Identified for Review,
                         but Improvements Are Needed



                                        January 17, 2014

                              Reference Number: 2014-13-005




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number / 202-622-6500
 E-mail Address / TIGTACommunications@tigta.treas.gov
 Website        / http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


POTENTIALLY IMPROPER HEALTH                            improper credits identified by its computer
CARE CREDIT CLAIMS BY TAX-EXEMPT                       routines. Because the IRS does not conduct
ORGANIZATIONS ARE GENERALLY                            prerefund examinations on all potentially
BEING IDENTIFIED FOR REVIEW, BUT                       improper credits, it is important that the IRS
                                                       focus its limited resources on the most
IMPROVEMENTS ARE NEEDED
                                                       productive prerefund examinations.
                                                       However, TIGTA found that the Tax Exempt and
Highlights                                             Government Entities Division’s compliance plan
                                                       for the credit did not include plans for
Final Report issued on                                 periodically reviewing computer routines to
January 17, 2014                                       determine if any changes are needed based on
                                                       prerefund examinations. In addition, the IRS
Highlights of Reference Number: 2014-13-005            does not have a post-refund compliance
to the Internal Revenue Service Commissioner           strategy for the credit. Based on our concerns,
for the Tax Exempt and Government Entities             IRS officials indicated that they have begun to
Division.                                              analyze the outcomes of prerefund examinations
                                                       and initiated post-refund examinations. Lastly,
IMPACT ON TAXPAYERS                                    TIGTA determined that amended returns are not
                                                       always subjected to the same level of review as
During Tax Year 2012, tax-exempt organizations
                                                       original returns.
claimed more than $73 million in Small Business
Health Care Tax Credits provided for under the         WHAT TIGTA RECOMMENDED
Patient Protection and Affordable Care Act. The
Tax Exempt and Government Entities Division            TIGTA recommended that the Commissioner,
designed controls that systemically identify           Tax Exempt and Government Entities Division,
questionable credits for potential examination;        complete work to analyze and document the
however, additional controls would provide             outcomes of prerefund examinations, complete
further assurance that potentially improper            post-refund examinations, periodically update
claims for the credit are identified and addressed     the compliance plan for the credit, and ensure
effectively and efficiently.                           that amended returns are subjected to the same
                                                       reviews as original returns.
WHY TIGTA DID THE AUDIT
                                                       In their response to the report, IRS officials
The overall objective of this review was to            stated that they generally agreed with the
assess whether the IRS has controls in place to        recommendations and plan to or have taken
provide reasonable assurance that tax-exempt           corrective actions.
organizations are accurately claiming the credit.
WHAT TIGTA FOUND
The Tax Exempt and Government Entities
Division designed computer routines that identify
potentially improper credits claimed by
tax-exempt organizations for possible
examination prior to processing the tax returns
(prerefund). Since implementing these
processes, the Internal Revenue Service reports
that it has denied more than $1.5 million in
credits that it had determined were improper.
From January 1 through July 23, 2012, the
Tax Exempt and Government Entities Division
reported that it had initiated prerefund
examinations for 43 percent of the potentially
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           January 17, 2014


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Potentially Improper Health Care Credit Claims
                             by Tax-Exempt Organizations Are Generally Being Identified for
                             Review, but Improvements Are Needed (Audit # 201210323)

 This report presents the results of our review to assess whether the Internal Revenue Service
 (IRS) has controls in place to provide reasonable assurance that tax-exempt organizations are
 accurately claiming the Small Business Health Care Tax Credit. This review is included in our
 Fiscal Year 2014 Annual Audit Plan and addresses the major management challenge of
 Implementing Tax Law Changes.
 Management’s complete response to the draft report is included as Appendix VII.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Gregory D. Kutz, Assistant
 Inspector General for Audit (Management Services and Exempt Organizations).
                                  Potentially Improper Health Care Credit Claims
                                 by Tax-Exempt Organizations Are Generally Being
                               Identified for Review, but Improvements Are Needed




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Potentially Improper Credits Are Being Identified, but
          Additional Compliance Issues Should Be Addressed ................................... Page 3
                    Recommendation 1:.......................................................... Page 5

                    Recommendations 2 through 4:........................................... Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 10
          Appendix III – Report Distribution List ....................................................... Page 11
          Appendix IV – Outcome Measures............................................................... Page 12
          Appendix V – Form 8941, Credit for Small Employer Health
          Insurance Premiums ..................................................................................... Page 14
          Appendix VI – Glossary of Terms ................................................................ Page 15
          Appendix VII – Management’s Response to the Draft Report ..................... Page 16
           Potentially Improper Health Care Credit Claims
          by Tax-Exempt Organizations Are Generally Being
        Identified for Review, but Improvements Are Needed




                  Abbreviations

IRS         Internal Revenue Service
TE/GE       Tax Exempt and Government Entities
                              Potentially Improper Health Care Credit Claims
                             by Tax-Exempt Organizations Are Generally Being
                           Identified for Review, but Improvements Are Needed




                                            Background

On March 23, 2010, the Patient Protection and Affordable Care Act1 was signed into law. Along
with amendments in the Health Care and Education Reconciliation Act of 2010,2 which was
signed on March 30, 2010, this legislation contains $438 billion3 worth of revenue provisions in
the form of new taxes, fees, and penalties. It also
contains a number of tax credits.4 One of these credits,
                                                                 The Patient Protection and
the Small Business Health Care Tax Credit, is provided         Affordable Care Act provides
as an incentive for small businesses and tax-exempt             for a Small Business Health
organizations to provide health care coverage for their       Care Tax Credit as an incentive
employees. To be eligible for the credit, employers               for small businesses and
must have less than 25 full-time equivalent employees,         tax-exempt organizations to
                                                               provide health care coverage
have average annual wages that do not exceed $50,000,                for their employees.
and cover at least 50 percent of the cost of health care
coverage for each employee.
While the eligibility requirements are the same, the percentage of health care coverage that can
be claimed as a credit and whether the credit can result in a refund differs between businesses
and tax-exempt organizations. Through Tax Year 2013, the maximum credit that can be claimed
is 35 percent for small businesses and 25 percent for small tax-exempt organizations.5 In
addition, when claimed on business returns, the credit is nonrefundable, i.e., only available to
offset actual tax liabilities. The credit is refundable to tax-exempt organizations.6
To claim the credit, eligible tax-exempt organizations must complete Form 8941, Credit for
Small Employer Health Insurance Premiums,7 and report the credit on Form 990-T, Exempt
Organization Business Income Tax Return.




1
  Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S. Code), as amended
by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152, 124 Stat. 1029.
2
  Pub. L. No. 111-152, 124 Stat. 1029.
3
  Joint Committee on Taxation estimated revenue effects, JCX-17-10, Mar. 20, 2010.
4
  See Appendix VI for a glossary of terms.
5
  Beginning in Tax Year 2014, some of the rules change and the credit will be available only for two consecutive
years, but the amount allowed will increase.
6
  The refund cannot exceed the total amount of income tax and Medicare tax withholding from employees’ wages
and the employer’s share of Medicare tax. In addition, the Balanced Budget and Emergency Deficit Control Act of
1985 (Pub. L. No. 99-177, Stat. 1038, 2 U.S.C. § 900) as amended by the Budget Control Act of 2011 (Pub. L.
No. 112-25, Stat. 240) reduced the refundable portion of the credit for tax-exempt organizations by 8.7 percent.
7
  See Appendix V for a copy of Form 8941.
                                                                                                           Page 1
                           Potentially Improper Health Care Credit Claims
                          by Tax-Exempt Organizations Are Generally Being
                        Identified for Review, but Improvements Are Needed



This audit report focuses solely on the Tax Exempt and Government Entities (TE/GE) Division’s
oversight of the credit claimed by tax-exempt organizations.
Figure 1 provides the amount of the credit claimed by processing year.
                  Figure 1: Tax-Exempt Organization Small Business
                   Health Care Tax Credit Claims by Processing Year

                                             Total Number of
                                             Returns Claiming               Credit Amount
               Processing Year                  the Credit                     Claimed
                      2011                          12,868                    $47,485,409
                      2012                          19,472                    $73,099,167
                      2013*                         16,739                    $66,471,602
           Source: Small Business Health Care Tax Credit reports provided by the Internal
           Revenue Service (IRS). * Through September 26, 2013.

This review was performed at the Ogden Submission Processing Center in Ogden, Utah, and
information was obtained from the TE/GE Division Headquarters in Washington, D.C., during
the period August 2012 through June 2013. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our finding and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                            Page 2
                              Potentially Improper Health Care Credit Claims
                             by Tax-Exempt Organizations Are Generally Being
                           Identified for Review, but Improvements Are Needed




                                      Results of Review

Potentially Improper Credits Are Being Identified, but Additional
Compliance Issues Should Be Addressed
The TE/GE Division designed computer routines that identify, as tax-exempt organization
returns are being processed, organizations that have potentially claimed the credit improperly.8
Potentially improper credits may then be subject to a prerefund examination to determine
whether the credit was accurate and should be allowed and whether any associated refund should
be issued. Since implementing these processes, the IRS reports that it has denied more than
$1.5 million in Small Business Health Care Tax Credits, which would have resulted in improper
payments9 if allowed.
From January 1 through July 23, 2012, the TE/GE Division reported that it initiated prerefund
examinations on 681 (43 percent) of 1,578 returns that were identified as containing a potentially
improper credit. However, more than half of the returns identified as containing potentially
improper credits were not examined because, according to the IRS, it does not have the resources
to conduct prerefund examinations on all questionable claims when returns are filed. Therefore,
it is important that the IRS focus its limited resources on the most productive prerefund
examinations and develop plans to address potentially improper credits that are not subjected to a
prerefund examination (post-refund).
Additional controls would provide further assurance that potentially improper claims for the
credit are identified and addressed effectively and efficiently. Without effective IRS oversight,
improper or fraudulent credits may be claimed, thereby reducing Federal Government revenue.
Actions can be taken to 1) update and improve the TE/GE Division’s compliance plan for the
credit, 2) subject amended returns to the same level of review as original returns, and 3) provide
more accurate information for IRS employees researching credit claims.

The TE/GE Division’s compliance plan could be more thorough
The TE/GE Division developed a compliance plan for the credit that included developing more
than 10 computer routines to identify potentially improper claims for the credit for possible
prerefund examinations. However, the TE/GE Division had not analyzed and documented the


8
  We concluded this based on a review of a statistical sample of 97 tax-exempt returns. See Appendix I for further
details on our sampling methodology.
9
  The Improper Payments Elimination and Recovery Act of 2010 (Pub. L. No. 111-204, 124 Stat. 2224) increased
agency accountability for reducing improper payments in Federal programs.
                                                                                                             Page 3
                               Potentially Improper Health Care Credit Claims
                              by Tax-Exempt Organizations Are Generally Being
                            Identified for Review, but Improvements Are Needed



outcome of these examinations to potentially increase the productivity of prerefund examinations
by determining whether:
        Any of these computer routines should be given priority over other routines.
        Existing computer routines should be amended.
        Additional computer routines are needed.
The Standards for Internal Control in the Federal Government states that managers “…need to
compare actual performance to planned or expected results … and analyze significant
differences.” If this type of evaluation is not conducted periodically and documented, the IRS
may not be conducting prerefund examinations on the returns most likely to include improper
credits. Without this evaluation, compliant organizations may be unnecessarily examined.
In addition, the TE/GE Division has not developed a post-refund compliance strategy. As
previously mentioned, the TE/GE Division is enforcing the law by identifying potentially
improper claims for the credit during processing of original returns. However, due to limited
resources, the IRS cannot conduct prerefund examinations on all potentially improper credits
prior to accepting the returns as filed; therefore, it is allowing the credits and is issuing
potentially improper refunds. Based on concerns we raised during the audit, TE/GE Division
officials indicated that they have begun to analyze the outcomes of examinations and initiated
post-refund examinations, but have not yet completed this work or updated the compliance plan
based on the results.

Potential improper credits are being allowed when amended returns are filed
The TE/GE Division does not subject amended returns to the same level of review as it does to
original tax-exempt organization returns. The IRS analyzes amended returns manually.
However, it does not consistently evaluate these returns using all the criteria in the computer
routines that were designed to systemically review original returns. During the period
January 1 through July 23, 2012, the IRS processed 253 amended returns10 filed by tax-exempt
organizations claiming the credit. We selected a statistical sample of these returns and
determined that five (7 percent) of 71 returns included claims the IRS should have identified as
potentially improper.11 For example, four of the amended returns should have been identified as
potentially improper because the number of employees reported by the organizations exceeded
the maximum full-time equivalent employees allowable by law to qualify for the credit.



10
   The IRS could not differentiate between amended or duplicate returns on its systems because the IRS transaction
code is the same for both types of returns. Therefore, the 253 returns include both amended and duplicate returns.
11
   All five returns were amended returns. During processing, IRS officials explained that duplicate and amended
returns are flagged for appropriate resolution. For those returns that we identified as duplicates of an originally filed
return, we determined that the IRS did not issue any duplicate refunds.
                                                                                                                 Page 4
                           Potentially Improper Health Care Credit Claims
                          by Tax-Exempt Organizations Are Generally Being
                        Identified for Review, but Improvements Are Needed



Although the number of amended returns filed by tax-exempt organizations claiming the credit is
small (averaging nine returns per week), the IRS could reduce improper payments in compliance
with the Improper Payments Elimination and Recovery Act of 2010 by following the same
routines used when original returns are filed. We project that the IRS could potentially realize
more than $116,000 in funds put to better use over three years.12

Information from tax-exempt organization returns was not displayed accurately
We reviewed a statistical sample of tax-exempt organization returns that were identified as
including potentially improper credits and determined that the information transcribed from
Form 8941 was not always displayed correctly for individuals conducting research on
IRS computer systems. The Standards for Internal Control in the Federal Government states
that controls should ensure that transactions are completely and accurately recorded.
Due to a programming error, information from line 16 of Form 8941 was displayed as line 15.
As a result, any IRS employee who subsequently researched the filing would be viewing
inaccurate credit information and could draw inaccurate conclusions.
Based on our concerns, the TE/GE Division and Information Technology organization took
action to correct the programming error. However, this action only corrected information
displayed from Forms 8941 that were transcribed after the date the programming error was
corrected. Further, although this resulted in correctly displaying information from line 16, it did
not remove the incorrect line identification (line 15) and in fact displayed the data from another
line on the return instead.
Because this inaccurate programming could be used to display any Form 8941 filed by a
tax-exempt organization that claimed the credit in Tax Year 2011, we determined that
information about the credit from Form 8941 could be displayed incorrectly on IRS computer
systems for more than 9,000 tax-exempt organizations.13

Recommendations
The Commissioner, TE/GE Division, should:
Recommendation 1: Complete work to analyze and document the outcomes of prerefund
examinations, complete post-refund examinations, and periodically update the compliance plan
for the credit.
          Management’s Response: IRS management agreed with this recommendation and
          stated that they would complete an analysis of prerefund and completed post-refund


12
     See Appendix IV.
13
     See Appendix IV.
                                                                                             Page 5
                          Potentially Improper Health Care Credit Claims
                         by Tax-Exempt Organizations Are Generally Being
                       Identified for Review, but Improvements Are Needed



       examinations. Based on the results of this analysis, a determination will be made as to
       whether the compliance plan for the credit needs to be updated.
Recommendation 2: Ensure that amended tax-exempt organization returns are subjected to
the same level of review as original returns to identify and address potentially improper claims
for the credit.
       Management’s Response: IRS management agreed with this recommendation and
       stated that they have expanded documentation required to specifically reflect manual
       application of the electronic filters to amended returns. The TE/GE Division will issue
       internal guidance providing instructions on documenting the review of amended returns.
       The IRS did not agree with the full estimate of funds that could be put to better use over
       five years if amended returns were subjected to the same level of review as original
       returns for the following reasons: (1) the amended returns may not have been selected
       for examination, (2) future changes to the statutory requirements to claim the credit,
       notably the limitation that allows eligible small employers to claim the credit for only two
       consecutive tax years beginning in Tax Year 2014, will affect the amounts claimed, and
       (3) for the examined returns to date, approximately 30 percent of the credit amounts
       claimed on examined returns have been disallowed.
       Office of Audit Comments: Our estimate is based on the IRS examining
       questionable claims for the credit on amended returns. We have reduced the outcome
       measure to account for changes in statutory requirements that allow for the credit to be
       claimed for only two consecutive tax years beginning in Tax Year 2014. In addition,
       after the IRS provided calculations which show that 30.2 percent of the credit amount
       claimed has been historically disallowed during examinations, we revised our outcome
       measure to reflect the percentage disallowed.
Recommendation 3: Submit a request to correct programming errors regarding the display of
credit information from Form 8941.
       Management’s Response: IRS management agreed with the recommendation and
       stated that they have requested programming be corrected regarding the display of credit
       information as it relates to Form 8941 for Form 990-T.
Recommendation 4: Alert employees to incorrect information that may be displayed when
they research Forms 8941 that were transcribed prior to the correction of the programming error.
       Management’s Response: IRS management agreed with the recommendation and
       stated that an alert has been prepared and posted on the Servicewide Electronic Research
       Program that informs employees of the issues relating to Form 8941 for Form 990-T.




                                                                                            Page 6
                                Potentially Improper Health Care Credit Claims
                               by Tax-Exempt Organizations Are Generally Being
                             Identified for Review, but Improvements Are Needed



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

The overall objective was to assess whether the IRS has controls in place to provide reasonable
assurance that tax-exempt organizations are accurately claiming the Small Business Health Care
Tax Credit.1 To accomplish our objective, we:
I.         Determined what controls the IRS has in place to process and examine claims for the
           credit.
           A. Conducted a walkthrough and obtained documentation to identify controls designed
              for processing Forms 990-T, Exempt Organization Business Income Tax Return (and
              proxy tax under section 6033(e)), and Forms 8941, Credit for Small Employer Health
              Insurance Premiums.
           B. Obtained and reviewed documentation on prerefund and post-refund examinations.
           C. Obtained reports the IRS used to monitor tax-exempt organizations’ claims for the
              credit.
II.        Reviewed the IRS’s plans to identify and address potentially improper claims for the
           credit.
           A. Identified and reviewed documentation of new or revised computer routines to
              determine whether they would identify potentially improper claims for the credit.
           B. Determined whether the criterion to prioritize returns for prerefund examinations was
              supported by data on how well prior examinations had identified improper claims for
              the credit.
           C. Determined whether the TE/GE Division had developed a post-refund compliance
              strategy.
III.       Determined whether the IRS effectively identified potentially improper claims for the
           credit.
           A. Determined whether computer routines designed to identify improper credits were
              working as intended.
               1. Identified the population and amount of claims for Tax Year 2011 by querying the
                  Business Return Transaction File.


1
    See Appendix VI for a glossary of terms.
                                                                                              Page 7
                 Potentially Improper Health Care Credit Claims
                by Tax-Exempt Organizations Are Generally Being
              Identified for Review, but Improvements Are Needed



   2. Validated the results of Step III.A.1. by comparing the results with the population
      and amount of claims on the TE/GE Division’s credit report. We determined that
      the data were sufficiently reliable for the purpose of our audit.
   3. Consulted with our contracted statistician to select a statistical sample of
      97 (1 percent) out of 9,057 Tax Year 2011 Forms 8941. We selected our
      statistical sample using the following criteria: 90 percent confidence level,
      10 percent expected error rate, and ± 5 percent precision rate. We used a random
      sample to ensure that each Form 8941 had an equal chance of being selected,
      which enabled us to obtain sufficient evidence to support our results.
   4. Obtained and reviewed Forms 8941 and associated Forms 990-T to determine
      whether the credit was being calculated correctly.
   5. Determined whether selected information from the Forms 8941 was being
      displayed accurately on the Integrated Data Retrieval System.
   6. Determined whether the claim was also identified by the computer routines
      designed to identify potentially improper claims for the credit by manually
      applying the routines included in the compliance plan and comparing the results
      to the IRS’s results.
B. Determined whether controls over amended returns were sufficient to identify
   improper credits.
   1. Requested a data extract to determine the number of amended returns claiming a
      credit for Calendar Year 2012 (thru cycle 30) on the Business Master File.
   2. Validated the results of Step III.B.1. by reviewing the tax-exempt organization
      accounts on the Integrated Data Retrieval System to ensure that an amended or
      duplicate return was filed as denoted by the presence of a Transaction Code 976.
   3. Consulted with our contracted statistician to select a statistical sample of
      71 (28 percent) out of 253 Calendar Year 2012 amended or duplicate returns
      (thru cycle 30). We selected our statistical sample using the following criteria:
      90 percent confidence level, 10 percent expected error rate, and ± 5 percent
      precision rate. We used a random sample to ensure that each Form 8941 had an
      equal chance of being selected, which enabled us to obtain sufficient evidence to
      support our results.
   4. Obtained and reviewed amended or duplicate Forms 8941 and associated
      Forms 990-T to determine whether any amended returns contained potentially
      improper credits based on the computer routines developed for original returns.
   5. For any potentially improper credits identified, determined whether the
      TE/GE Division also identified the credits as potentially improper.

                                                                                   Page 8
                          Potentially Improper Health Care Credit Claims
                         by Tax-Exempt Organizations Are Generally Being
                       Identified for Review, but Improvements Are Needed



           6. Calculated a Funds Put to Better Use outcome by projecting the number of
              potentially improper credits on amended returns that were not being identified by
              the TE/GE Division.
IV.    Determined whether examination results were being used to improve the process to
       identify potentially improper claims for the credit.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: TE/GE Division policies, procedures, and
practices for identifying potentially improper claims for the credit. We evaluated these controls
by interviewing personnel, reviewing documentation, and reviewing statistical samples of
tax-exempt organization returns.




                                                                                            Page 9
                         Potentially Improper Health Care Credit Claims
                        by Tax-Exempt Organizations Are Generally Being
                      Identified for Review, but Improvements Are Needed



                                                                              Appendix II

                 Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
Exempt Organizations)
Troy D. Paterson, Director
Thomas F. Seidell, Audit Manager
William Simmons, Lead Auditor
Margaret A. Anketell, Senior Auditor
Jeffrey R. Stieritz, Senior Auditor
Brian W. Hattery, Information Technology Specialist




                                                                                      Page 10
                        Potentially Improper Health Care Credit Claims
                       by Tax-Exempt Organizations Are Generally Being
                     Identified for Review, but Improvements Are Needed



                                                                           Appendix III

                         Report Distribution List

Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Director, Communications and Liaison, Tax Exempt and Government Entities
   Division SE:T:CL




                                                                                   Page 11
                             Potentially Improper Health Care Credit Claims
                            by Tax-Exempt Organizations Are Generally Being
                          Identified for Review, but Improvements Are Needed



                                                                                             Appendix IV

                                    Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Funds Put to Better Use – Potential, $38,865 for Tax Year 2013, projected to $116,595 over
    three years (through 2015), representing the amount of potential funds put to better use that
    could be realized if amended returns were subjected to the same level of review as original
    returns (see page 3).

Methodology Used to Measure the Reported Benefit:
Based on a review of a statistical sample of amended or duplicate returns filed by tax-exempt
organizations from January 1 through July 23, 2012, we determined that five (7 percent) of
71 returns included credits the IRS should have identified as potentially improper. The IRS
reviews amended returns manually. However, it does not always evaluate these returns using all
the criteria in its computer routines designed to systemically review original returns. If the IRS
had followed the same criteria used when original returns are systemically reviewed, the IRS
could have examined and potentially denied $38,865 in improper credits in compliance with the
Improper Payments Elimination and Recovery Act of 20101 and could potentially realize more
than $100,000 over three years.2

Type and Value of Outcome Measure:
   Reliability of Information – Potential, 9,057 tax-exempt organization accounts, representing
    the number of tax-exempt organizations whose information about the credit from Form 8941
    could be displayed inaccurately on IRS computer systems (see page 3).




1
 Pub. L. No. 111-204, 124 Stat. 2224.
2
 The IRS provided calculations showing that 30.2 percent of the credit amount claimed has been historically
disallowed during examinations. This percentage was used in calculating the outcome measure. In addition, our
calculations take into account statutory requirement changes that allow for the credit to be claimed for only
two consecutive tax years beginning in Tax Year 2014.
                                                                                                        Page 12
                               Potentially Improper Health Care Credit Claims
                              by Tax-Exempt Organizations Are Generally Being
                            Identified for Review, but Improvements Are Needed



Methodology Used to Measure the Reported Benefit:
We reviewed a statistical sample of tax-exempt organization returns that were identified as
including potentially improper credits and determined that the information transcribed from
Form 8941, Credit for Small Employer Health Insurance Premiums,3 was not always displayed
correctly for individuals conducting research on IRS computer systems.
Due to a programming error, information from line 16 of Form 8941 was displayed as line 15.
As a result, any IRS employee who subsequently researched the filing would be viewing
inaccurate credit information and could draw inaccurate conclusions.
Because this inaccurate programming could be used to display any Form 8941 filed by a
tax-exempt organization that claimed the credit in Tax Year 2011, we determined that
information about the credit from Form 8941 could be displayed incorrectly on IRS computer
systems for all 9,057 tax-exempt organizations that claimed the credit in Tax Year 2011.




3
    See Appendix V for a copy of Form 8941.
                                                                                       Page 13
                    Potentially Improper Health Care Credit Claims
                   by Tax-Exempt Organizations Are Generally Being
                 Identified for Review, but Improvements Are Needed



                                                             Appendix V

         Form 8941, Credit for Small Employer
             Health Insurance Premiums




Source: www.IRS.gov

                                                                      Page 14
                       Potentially Improper Health Care Credit Claims
                      by Tax-Exempt Organizations Are Generally Being
                    Identified for Review, but Improvements Are Needed



                                                                               Appendix VI

                             Glossary of Terms

Term               Definition

Business Master    The IRS database that consists of Federal tax-related transactions and
File               accounts for businesses. These include employment taxes, income taxes on
                   businesses, and excise taxes.
Business Return    A computer file of transcribed line items on all business returns and their
Transaction File   accompanying forms and schedules.
Calendar Year      The 12-consecutive-month period ending on December 31.
Computer Routine   A procedure, or part of a computer program, that performs a particular task.
Credit             A credit is normally preferred over a deduction because it reduces the tax
                   due dollar-for-dollar, as opposed to a deduction, which decreases taxable
                   income.
Full-Time          A measure of labor hours in which one full-time equivalent is equal to
Equivalent         eight hours multiplied by the number of compensable days in a particular
                   year. For the purpose of determining the credit, one full-time equivalent is
                   equal to 2,080 hours.
Improper Payment   Any payment that should not have been made or that was made in an
                   incorrect amount under statutory, contractual, administrative, or other
                   requirements.
Integrated Data    The IRS computer system capable of retrieving or updating stored
Retrieval System   information. It works in conjunction with a taxpayer’s account records.
Master File        The IRS database that stores various types of taxpayer account information.
                   This database includes individual, business, and employee plans and exempt
                   organizations data.
Processing Year    The calendar year in which the tax return or document is processed by the
                   IRS.
Tax Year           A 12-month accounting period for keeping records on income and expenses
                   used as the basis for calculating the annual taxes due. For most individual
                   taxpayers, the tax year is synonymous with the calendar year.

                                                                                         Page 15
          Potentially Improper Health Care Credit Claims
         by Tax-Exempt Organizations Are Generally Being
       Identified for Review, but Improvements Are Needed



                                                  Appendix VII

Management’s Response to the Draft Report




                                                            Page 16
   Potentially Improper Health Care Credit Claims
  by Tax-Exempt Organizations Are Generally Being
Identified for Review, but Improvements Are Needed




                                                     Page 17
   Potentially Improper Health Care Credit Claims
  by Tax-Exempt Organizations Are Generally Being
Identified for Review, but Improvements Are Needed




                                                     Page 18
   Potentially Improper Health Care Credit Claims
  by Tax-Exempt Organizations Are Generally Being
Identified for Review, but Improvements Are Needed




                                                     Page 19
